APPENDIX A

APPENDIX A
/

\

Icf
IN THE COURT OF APPEALS OF THE STATE OF NEVADA
KIM BRANDING, AND SIMILARLY
SITUATED PERSON (NEIGHBORS)
Petitioner,
vs.
THE EIGHTH JUDICIAL DISTRICT
COURT OF THE STATE OF NEVADA,
IN AND FOR THE COUNTY OF
CLARK; AND DISTRICT COURT
JUDGES OF THE EIGHTH JUDICIAL
DISTRICT COURT,
Respondents,
and
THE STATE OF NEVADA,
Real Party in Interest.

No. 81765-COA

SEP 2/5 2020
EUZ/iSESt-lA. BfKViVN
SUPREME COURT

E' ^uepuVyclerk

~

ORDER DENYING PETITION
FOR EXTRAORDINARY WRIT RELIEF
This is an emergency, original pro se petition for a writ of
mandamus, prohibition, certiorari and/or habeas corpus. Petitioner has
also filed a motion for stay of district court proceedings.
Writ relief is not available if the petitioner has a plain, speedy,
and adequate remedy at law. See NRS 34.020; NRS 34.170; NRS 34.330;
Pan v. Eighth Judicial Dist. Court, 120 Nev. 222, 224, 88 P.3d 840, 841
(2004). Further, writ relief is an extraordinary remedy, and it is within the
discretion of this court to determine if a petition will be considered. See
Smith u. Eighth Judicial Dist. Court, 107 Nev. 674, 677, 818 P.2d 849, 851
(1991). Petitioner bears the burden of demonstrating that extraordinary
relief is warranted.

See Pan, 120 Nev. at 228, 88 P.3d at 844. And,

Court oe.Appeals
of

Nevada

2.0- zsssi

Z4

generally, an appeal is an adequate legal remedy precluding writ relief.
Pan, 120 Nev. at 224, 88 P.3d at 841.
Having

considered

petitioner's

petition

and

supporting

documents, we conclude that petitioner has failed to demonstrate that our
extraordinary intervention is warranted. Petitioner again raises several
issues that we declined considering pretrial in Blandino v. Lombardo,
Docket Nos. 80541-COA & 80606-COA (Order Denying Petitions for
Extraordinary Writ Relief, April 16, 2020). And we conclude that appellant
has an adequate legal remedy in the form of an appeal after trial.
Additionally, the petition raises many factual concerns, which we have
explained are better handled by the district court in the first instance. See
Round Hill General Improvement Dist. v. Newman, 97 Nev. 601, 604, 637
P.2d 534, 536 (1981). Accordingly, we deny the petition.
It is so ORDERED.1

C.J.
Gibbons

Tao

Bulla

lIn light of this order, petitioner’s motion to stay the district court
proceedings is denied as moot.
Court of Appeals
OF

Nevada

2

<m

Kim Blandino
Attorney General/Carson City
Clark County District Attorney
Eighth District Court Clerk

Court of Appeals
Of

Nevada
I

fO» IQ47R

3

APPENDIX B

*

APPENDIX B

8/19/2020 6:08 PM

Electronically Filed
.08/19/2020 6:08 PM
CLERK OF THE COURT

1

DAO

2

EIGHTH JUDICIAL DISTRICT COURT

3

CLARK COUNTY, NEVADA

4
5

State of Nevada,

6

Plaintiff,

7

us.

Case No.

C-l 9-341767-1

8

KimBlandino,

Dept. No.

12

9

Defendant.

10
ll

Decision and Order Denying the Motions for Reconsideration and Disqualification
12

Kim Blandino filed two motions on August 11,2020. Mr. Blandino’s first motion moved for
13
14
15
16

reconsideration of the Court’s August 3, 2020, Decision and Order. Mr. Blandino’s second motion
moved for the disqualification of the Court. The Court now rules based solely on the papers
pursuant to EDCR 2.23(c). After review of Mr. Blandino’s motions, the Court denies both Mr.
Blandino’s motion for reconsideration and Mr. Blandino’s motion for disqualification. The August

17
18

25,2020, hearing on this matter is vacated.
I. Factual and Procedural Background

19

On May 7, 2020, Mr. Blandino filed a motion to disqualify Judge Leavitt and all judges of

20

the Eighth Judicial District Court. No certificate of service was included with the May 7th motion.
21

On July 1, 2020, parties appeared before Senior Judge Barker for a trial readiness conference.
22

Following the trial readiness conference, Mr. Blandino filed a motion to disqualify Senior Judge
23
24

Barker on July 10,2020.
On August 3, 2020, the Court issued a Decision and Order which denied both the May 7,

25

2020, and July 10, 2020, disqualification motions.

The motions were denied for improperly

pi26

attempting to disqualify judges who were not assigned to Mr. Blandino’s case, lack of service, and

Jqq 28

for failing to establish factual or legal grounds for disqualification.

11127

1
f
i”

*$v
l

On August 11, 2020, Mr. Blandino moved for reconsideration of the August 3, 2020,

2

decision. Mr. Blandino also moved to disqualify the Court for hearing the May 7,2020, and July 10,

3

2020, disqualification motions.

4
5

n. Discussion
A. Mr. Blandino’s motion to disqualify the Court is denied as moot.

6

As a preliminary matter, the Court addresses Mr. Blandino’s request to disqualify the Court.

7

Mr. Blandino moves to retroactively disqualify the Court from hearing the May 7,2020, and July 10,

8

2020, disqualification motions. NRS 1.235 provides the procedure for the disqualification of a

9

judge. NRS 1.235 does not provide for retroactive disqualifications and the Court has already issued

10

a decision on the May 7, 2020, and July 10, 2020, disqualification motions. Therefore, Mr.
Blandino’s motion to disqualify the Court is denied as moot.

11
12

13

B. Reconsideration is not warranted because there is no new information,
misrepresentation, or misconduct that would impact the Court’s decision.

Mr. Blandino argues that his May 7, 2020, and July 10, 2020, disqualification motions were
14
lg - based on erroneous fact and law. Mr. Blandino asserts that his disqualification motions were
16

properly served and provides a copy of the notification of service. The notification indicates that the

17

May 7th motion was served on the DA’s office, Mr. Blandino’s standby counsel, and Mr. Blandino.

18

^ B1andino then used his personal e-mail address to e-mail the notification of service to various

19

judicial departments. Mr. Blandino also argues that the Court did not consider legal authority which

20

supports the disqualification ofjudges due to bias.

21

A district court may reconsider a previously decided issue if substantially different evidence

22 II is subsequently introduced or the decision is clearly erroneous. Masonry & Tile Contractors Ass'n
23
oLS- Nevada v. Jolley, Urga & Wirth, Ltd., 941 P.2d 486, 489 (Nev. 1997), see also Moore v. City
24 I of Las Vegas, 551 P.2d 244, 246 (Nev. 1976) (holding that motions should only be reheard when

Igg 25

there are new issues of fact or law raised).

26

Here, reconsideration is not warranted because Mr. Blandino has failed to offer substantially

il 27

different evidence nor has Mr. Blandino demonstrated that the August 3, 2020, decision was clearly

QQ

erroneous. The August 3rd decision addressed the lack of service and the merits of Mr. Blandino’s

l_3

a

28

2

(s <4
1

arguments. In the May 7th disqualification motion, Mr. Blandino moved to disqualify Judge Leavitt

2

based on Judge Leavitt’s rulings and actions during official proceedings, specifically Judge Leavitt’s

3

appellate record. The motion was denied on its merits because the rulings and actions of a judge

4

during the course of official judicial proceedings do not establish legally cognizable grounds for

5 | disqualification. In re Pet. To recall Dunleaw. 769 P.2d 1271,1275 (Nev. 1988).
6

Mr. Blandino asserts that his May 7th disqualification motion was properly served. The

7 | Rules of Practice for the Eighth Judicial District Court provide that electronic service must be made
8

“through the Court’s electronic filing system.” EDCR 7.26(a)(4). Mr. Blandino’s notification of

9 I service for the May 7th motion indicates that the electronic filing system served only the DA’s
10

office, Mr. Blandino’s standby counsel, and Mr. Blandino. Even if Mr. Blandino’s disqualification

11

motion was served properly, Mr. Blandino fails to provide any new evidence of alleged bias or

12

prejudice by Judge Leavitt. Instead, Mr. Blandino continues to rely on Judge Leavitt’s appellate

13

record as evidence of bias or prejudice. Mr. Blandino argues that Judge Leavitt’s appellate record

14

demonstrates bias because Mr. Blandino is privately investigating Judge Leavitt. This argument is

15

meritless as Mr. Blandino is not a party to any of the appellate cases included with his May 7th

16

motion and none of the cases are related to Mr. Blandino’s current criminal case. Furthermore , none

17 II °f ^e legal authority cited by Mr. Blandino supports disqualification based solely on a judge’s
18

rulings and actions during official proceedings, related or not to Mr. Blandino’s current criminal

19

case. Mr. Blandino does not raise new issues of fact or law that would warrant reconsideration.

20

Therefore, Mr. Blandino’s motion for reconsideration is denied on these grounds.

21

III

22
23
24

3 WH 25

« 8>

1

GS

26
27

ill 28
3

7i
1

ULConclusion

2

Mr. Blandino’s motion to disqualify the Court from hearing the May 7,2020, and July 10,

3

2020, disqualification motions is denied as moot because the Court has already ruled on both

4

motions. Mr. Blandino’s motion for reconsideration does present any new evidence, facts, or issues

5

of law that would be grounds for the Court to reconsider its decision on Mr. Blandino’s request to

6

disqualify Judge Leavitt. Thus, Mr. Blandino’s motion for reconsideration is also denied. The

7

August 25,2020, hearing for this matter is vacated.

8

Dated this 19th day of August, 2020

9
10
11

6D9 6BD CF13 3AE5
Linda Marie Bell
District Court Judge

12

13
14
15
16

17
18
19
20

21
22

23
24

jus25
26

B§

27

1 Q Q 28

4

APPENDIX B.l

APPENDIX B.l

Electronically Filed
y08/03/202011^38 AM

1

CLERK OF THE COURT

DAO

2

EIGHTH JUDICIAL DISTRICT COURT

3

CLARK COUNTY, NEVADA

4
5
6

State of Nevada,

7

w.

Case No.

C-19-341767-1

8

KimBlandino,

Dept. No.

12

Plaintiff,

9

Defendant

10
11
Decision and Order Denying tope May 7.2020. and .Tiit.v 1 ft 207.0,

12

Motions to Disqualify Jimrac

13
14
jg II

Kim Blandino filed two motions to disqualify judicial officers, Mr. Blandino’s motions
disqualification of Judge Leavitt, who is actually assigned to Mr. Blandino’s case, as well as

16

^ disqualification of Senior Judge Barker and every judge in.the Eighth Judicial District Court

17

1116 Court now

18

BIandino’s motions, the Court denies Mr. Blandino’s request to disqualify Judge Leavitt, Senior

19

Judge Barker, and all the judges of the Eight Judicial District Court

based solely on

papers pursuant to EDCR 2.23(c). After review of Mr.

I. Factual and Procedural Background
On July 12, 2019, Kim Blandino was indicted on felony and gross misdemeanor charges.
21
22 A 11x6 0886 was assiSned to Judge Leavitt. Judge .Leavitt referred Mr. Blandino for competency
20

23

evaIuati011 on September 17, 2019. On December 13, 2019, Mr. Blandino filed a motion to

24

^qualify Judge Leavitt and all judges of the Eight Judicial District Court Three days later, Judge
Leavitt filed an affidavit denying any bias or prejudice towaris any party in this case. He motion

IgS z6
25

i

1, was denied on January 23,2020. Mr. Blandino was found competent to proceed with adjudication
on April 9,2020.

flfl 28

1

i

°l <4
1

On May 7, 2020, Mr. Blandino filed another motion to disqualify Judge Leavitt and all

2

judges of the Eighth Judicial District Court No certificate of service was included with the May 7th

3

motion. On July 1, 2020, parties appeared before Senior Judge Barker for a trial readiness

4

conference. Following the trial readiness conference, Mr. Blandino filed a motion to disqualify

5

Senior Judge Barker on July 10,2020. The Court now denies both the May 7,2020, and July 10,

6

2020, disqualification motions.
n. Discussion

7
8

9
10

u
12
13
14
15
16
17
18
19
20

A. Legal Standard
Nevada Revised Statute 1.230 provides the statutory grounds for disqualifying district Court
judges. The statue in pertinent part provides:
1. A judge shall not act in an action or proceeding when the judge entertains actual
bias or prejudice for or against one of die parties to the action.
2. A judge shall not act as such in an action or proceeding when implied bias exists
in any of the following respects:
(a) When the judge is a party to or interested in die action or proceeding.
(b) When the judge is related to either party by consanguinity or affinity within die
third degree.
(c) When the judge has been attorney or counsel for either of die parties in the
particular action or proceeding before the court.
(d) When the judge is related to an attorney or counselor for either of the parties by
consanguinity or affinity within the third degree. This paragraph does not apply
to the presentation of ex parte or contested matters, except in fixing fees for an
attorney so related to the judge.
The Revised Nevada Code of Judicial Conduct provides substantive grounds for judicial
disqualification. Pursuant to NCJC 2.11(A):

21
22

23

24

flag
<r»

I

(A) A judge shall disqualify himself or herself in any proceeding in which the
judge’s impartiality might reasonably be questioned, including but not limited to the
following circumstances:
(1) The judge has a personal bias or prejudice concerning a party or a party’s
lawyer, or personal knowledge of facte that are in dispute in the proceeding.

25

A judge shall disqualify himself or herself in any proceeding in which the judge’s impartiality might

26

be reasonably questioned. Ybarra v. State. 247 P.3d 269, 271 (Nev. 2011). The test for whether a

27

judge’s impartiality might be reasonably questioned is objective and courts must decide whether a

&

QQ 28
2

/ 0<4
1

reasonable person, knowing all the foots, would harbor reasonable doubts about a judge’s

2

3

impartiality. Id* at 272.
The burden is on the party asserting foe challenge to establish sufficient foctual and legal

4

grounds warranting disqualification. Las Vegas Downtown Redevelopment Agency v. District

5

Court 5 P.3d 1059, 1061 (Nev. 2000). A judge has a duty to preside to the conclusion of all

6

proceedings, in the absence of some statute, rule of court, ethical standard, or compelling reason

7

otherwise. Id. A judge is presumed to be unbiased. Millen v. District Court 148 P.3d 694, 701

8

(Nev. 2006). A judge is presumed to be impartial, and the burden is on the party asserting the

9

challenge to establish sufficient factual grounds warranting disqualification. Yabaira, 247 P.3d at

10

272. Additionally, the Court must give substantial weight to a judge’s determination that the judge

11

may not voluntarily disqualify themselves, and the judge’s decision cannot be overturned in the

12

absence of clear abuse of discretion. In re Pet. To recall Dunleaw. 769 P.2d 1271, 1274 (Nev.

13

1988).

14

The Nevada Supreme Court has stated “rulings and actions of a judge during the course of

15

official judicial proceedings do not establish legally cognizable grounds for disqualifications.” Id* at

16

1275. The personal bias necessary to disqualify must ’stem from an extrajudicial source and result
in an opinion on the merits on some basis other than what the judge learned from participation in the

17
19

case.” IjL ‘To permit an allegation of bias, partially founded upon a justice’s performance of his [or
her] constitutionally mandated responsibilities, to disqualify that justice from discharging those

20

duties would nullify the court’s authority and permit manipulation of justice, as well as foe court”

21

Id.

18

22

The Nevada Supreme Court has noted that while the general rule is that what a judge learns

23

in his or her official capacity does not result in disqualification, “an opinion formed by a judge on

24

the basis of facts introduced or events occurring in the course of the current proceedings, or of prior

25

proceedings, constitutes a basis for a bias or partiality motion where the opinion displays *a deep-

26

seated favoritism or antagonism that would make fair judgment impossible.” Kirksev v. State. 923

27

P.2d 1102, 1107 (Nev. 1996). However, “remarks of a judge made in foe context of a court

OP 28

proceeding are not considered indicative of improper bias or prejudice unless they show that foe

a

3

I l c/
1

judge has closed his or her mind to die presentation of all the evidence.” Cameron v. State. 968 P.2d

2

1169,1171 (Nev. 1998).

3

4

As a preliminary matter, the Court addresses Mr. Blandino’s requests to disqualify all judges

5

from the Eighth Judicial District Court and Senior Judge Barker. Mr. Blandino asserts that

6

disqualification of the entire Eighth Judicial District Court is necessary because Mr. Blandino is

7

privately investigating the District Court for corruption and misconduct. In file July 7th motion, Mr.

8

Blandino moves for the disqualification of Senior Judge Barker because Mr. Blandino was not

9

Informed that Senior Judge Barker was assigned to the case.

10

Under Nevada Revised Statute, disqualification motions or affidavits are used to disqualify

11

die judge assigned to a movant’s case. NRS 1.235 does not provide for the disqualification of a

12

judge who is not assigned to a movant’s case. A motion to disqualify a judge must be supported by

13

specific facts that show actual or implied bias against the judge. NRS 1.235(1). As the instant case

14

is assigned to Judge Leavitt, it is improper for Mr. Blandino to request disqualification of unassigned

15

judges. Additionally, Senior Judge Barker only heard die trial readiness conference in the case;

16

Senior Judge Barker has not been assigned to die case. Therefore, Mr. Blandino’s requests to

17

disqualify all Judges from the Eighth Judicial District Court and Senior Judge Barker are denied

18

because only Judge Leavitt is assigned to the case.

19
20

21
22

23
24
25

26
d

a

B. Mr. Blandlno improperly seeks to disqualify judges who are not assigned to die case.

27

QQ 28

C. Disqualification of Judge Leavitt is not warranted because Mr. Blandino has not
established sufficient factual and legal grounds for disqualification.
NRS 1.235 provides that at die time an affidavit to disqualify a judge is filed, “a copy must
be served upon the judge sought to be disqualified.” NRS 1.235(4). Here, there is no evidence that
Mr. Blandino’ May 7th motion was served upon Judge Leavitt or the District Court staff attorney.
This procedural defect requires denial of Mr. Blandino’s motion. But, even if the lack of personal
service were not fatal, Mr. Blandino has not demonstrated sufficient grounds to support the
disqualification ofJudge Leavitt
Mr. Blandino argues that die competency referral and Judge Leavitt’s rulings in the case are
evidence that Judge Leavitt is biased in favor of the District Attorney. Mr. Blandino also argues that
4

\2L4
1

in. Conclusion

2

This case is assigned to Judge Leavitt Mr. Blandino improperly requests the

3 II of judges who are not assigned to this case. Furthermore, neither Judge Leavitt nor the District
4

Court staff attorney was served with Mr. Blandino’s May 7th disqualification motion. This

5

procedural defect requires denial of Mr. Blandino’s motion. Even if the lack of personal service

6

were not fatal, Mr. Blandino does not bring any cognizable claims supported by factual or legal

7

allegations against Judge Leavitt Judge Leavitt’s rulings and actions in die course of official

8

judicial proceedings are not evidence of bias or prejudice. Thus, Mr. Blandino’s May 7,2020, and

9

July 10,2020, disqualification motions are both denied.

10

Dated this 3rd day of August, 2021

11
12

13
14

7F9 28DA3DE554C
Linda Marie Bell
District Court Judge

15
16
17
18
19
20
21
22
23
24

Sag 25

I
b

26

27
&
QQ 28

.

6

APPENDIX B.2

APPENDIX B.2

EteetroflleaByRted
1/23*20204:39 PM
$t*v«nD.Grierson
CLERK OF THE COURl

I3i
DAO

1

eighth judicial district court

2

CLARK COUNTY, NEVADA

3

!

4
5

The State of Nevada
Plaintiff,

6
7

vs.

8

Kim Blandino,

9

Case No.

C-19-341767-1

Dept. No.

XII

Defendant.

10

12
13

14
15
16
17

18
19
20

21
22
23

Decision and Order
Kim Blandino (“Defendant”) filed a “Motion to Disqualify Judges Michelle Leavitt,
Eighth Judicial District Court Pursuant to NRS 1.230
Bell and Marquis and All Judges of the
of the Revised Nevada Code of Judicial Conduct (“Code”) and
and 1.235 and Rule 2.11
Another District Pursuant to NRS
Why this Matter Must he Heard by a Judge from
»• This matter came before the Court on January 2. 2020. Chamber
1.235(5)(a) and the Code.
Calendar. After reviewing Defendant's motion, Judge Bell's affidavit, and Judge Leav.u s
affidavit, the Court denies Defendant's motion.
Factual and Procedural Background
1.
, Defendant was indicted on one count of Extortion and one count ol
On July 12,2019
The case was assigned to Department 12 and Judge Leavitt
Impersonation of an Officer.
■
evaluations for Defendant on September 17, 2019. The first
8 ordered competency
competency hearing in this matter was on October 4,2019, but Defendant had not yet been
I evaluated and the hearing was continued for a status check on November 1, 2019. At the

^
25 I November l status check, Defendant still had not been evaluated. The matter was continued
z
<
2

26 I to December 6, 2109, where the Court was informed again that Defendant had not
>■

Si; X

27

Set 28

lit

58 i

I

participated in evaluations, Defendant then sought leave to file a motion disqualifying the

1
2
3
4

5
6
7

8
9
ID

U
12
13
14

15
16
17
::

20

entire Eighth Judicial District from hearing his case.
Defendant filed the instant Motion on December 13.2019. alleging that Judge Leavitt
and Judge Bell are biased against him. Judge Leavitt filed an affidavit denying all
allegations On December 16.2019. Judge Bell filed an affidavit denying all allegations on
December 18, 2019. This matter came before this Court on Januaty 2, 2020, Chamber
Calendar.
!!.

Discussion

A. Legal Standard
Nevada Revised Statute 1.230 provides the statutory grounds for disqualifying district
Court judges. The statue in pertinent part provides:
1. A judge shall not act in an action or proceeding when the judge entertains

actual bias or prejudice for or against one of the parties to the action.
2. A judge shall not act as such in an action or proceeding when implied bias
exists in any of the following respects:
(a) When the judge is a party to or interested in the action or proceeding,
(b) When the judge is related to either party by consanguinity or affinity
within the third degree.
(c) When the judge has been attorney or counsel for either of the parties in
the particular action or proceeding before the court.
(d) When the judge is related to an attorney or counselor for enh
( 'parties by consanguinity or affinity within the third *8^ This
paragraph does not apply to the presentation of ex parte or contested
matters, except in fixing fees for an attorney so related to the judge.

21 | The Revised Nevada Code of Judicial Conduct provides substantive grounds for judicial
22 I disqualification. Pursuant to NCJC 2.11(A).
23
24

25

z =

26

(A) A judge shall disqualify himself or herself in any proceeding in which
the judge’s impartiality might reasonably be questioned, including but not
limited to the following circumstances:
(V) The judge has a personal bias or prejudice concerning a party or a party $
lawyer, or personal knowledge of facts that are in dispute in the proceeding.

§« »

Ilf
28
SSl

2

t\Scf
or herself in any proceeding in which ihe judge s
A judge shall disqualify himsell
. State. 247 P.3d 269,271 (Nev. 20 U).
impartiality might be reasonably questioned. Ybarrav
The test for whether ajudge's impartiality might be reasonably questioned is objective and

i
2
3
4
5
6
7
8
9

10

II
12
13
14
IS
16
17
18

19
20
21
22
23
24
25
z
<

'***
5S

26
27

iff 28
'ill

decide whether a reasonable person, knowing all the facts, would harbor
courts must
reasonable doubts about a judge’s impartiality. Id. at 272.
The burden is on the party asserting the challenge to establish sufficient factual and
legal grounds warranting disqualification, las Vegas Downtown Redevelopment Agcpcxv.
nr.,.;., rn„rt 5 P.3d 1059, 1061 (NeV. 2000). A judge has a duty to preside to the
conclusion of all proceedings, in the absence of some statute, rule of court, ethical standard.
or compelling reason otherwise.
A judge is presumed to be unbiased . Millen v. District
, 701 (Nev. 2006). A judge is presumed to be impartial, and the burden
Court. 148 P.3d 694
is on the party asserting the challenge to establish sufficient factual grounds warranting
disqualification. Yabarra, 247 PJd at 272 Additionally, the Court must give substantial
weight to a judge's determination that the judge may not voluntarily disqualify themselves,
and the judge’s decision cannot be overturned in the absence of clear abuse of discretion. In
rafo. Tn r*cM Dunleaw. 769 P.2d 1271, 1274 (Nev. 1988).

The Nevada Supreme Court has stated “rulings and actions of a judge during the
of official judicial proceedings do not establish legally cognizable grounds for

course
The personal bias necessary to disqualify must ‘stem from
disqualifications.” 1^. at 1275
an extrajudicial source and resull in an opinion on the merits on some basis other than what
the judge teamed from participation in the case." UL “To permit an allegation of bras,
partially founded upon a justice's performance of his [or her) constitutionally mandated
responsibilities, to disqualify that justice from discharging those duties would nullity the
court's authority and permit manipulation ofjustice, as well as the court.” !£
The Nevada Supreme Court has noted that while the general rule is that what a judge
learns in his or her official capacity does nor result in disqualification, “an opinion formed by
a judge on the basis of facts introduced or events occurring in the course of Ihe current
3

/ i of
proceedings, or of prior proceedings, consttacs . basis for . bias or partiality motion where

1
2

the opinion displays ‘a deep-sealed favoritism or antagonism that would make fair judgment

State> 923 p.2d 1102, 1107 (Nev. 1996). However, “remarks ol a s
3 impossible.” Kirkseyjv
4 1 judge made in the context of a court proceeding are not considered indicative of improper
5 1 bias or prejudice unless they show that the judge has closed his or her mind to the
6
7

8
9
10
11
12

13

adjudicate anything in this case due to an outstanding motion against her.
Judge Bell cannot
Defendant fails to set forth any specific facts to demonstrate bias or prejudice by Judge Bell.
In her response, Judge Bell affirms that at the November 1, 2019 competency hearing, she

18
19

968 P.2d at 1171. The party seeking disqualification, however, must establish sufhetent

20

Yabarra, 247 P.3d at 272. Here, Defendant has
factual grounds watranting disqualification,
not established sufficient factual grounds for his allegations against Judge Bell. Defendant

15
16
1?

21
22
23
24

25
= 26

misl 2728
=gi
ill

extreme bias or prejudice against
Defendant’s arguments do not demonstrate
p-fr-w that would support the disqualification of Judge Bell. Defendant alleges that

decisions and encouraged Defendant to cooperate with evaluating
made no substantive
regarding Defendant's pending criminal case.
doctors. Judge Bell states that due to concerns
she has not heard any of Defendant’s subsequent competency proceedings.
indicative of improper bias when the
A judge's remarks during court proceedings are
remarks show that the judge has closed their mind to the presentation of evidence. Cameron.

14

1

’’ Cameron v. Slate, 968 P,2d 1169,1171 (Nev. 1998).
presentation of all the evidence.
B Disaualification of Judge Bell is not warranted because Defendant has not
* established sufficient factual and legal grounds for disqualification.

evidence of the alleged bias, nor has Defendant
has not provided the Court with any
informed the Court of specific instances of the prejudicial behavior.
The Court’s review of the record and the November 1.2019 competency hearmg does
biased manner. Therefore, Defendant s
not show Judge Bell behaving in a prejudicial or
A ,^^5110 disqualify Judge Bell is denied.

4

/1<

not

1
2
3
4

5

Defendant argues that Judge Leavitt demonstrated bias against him on September
remand Defendant to competency
17, 2019 by granting the State's ex parte motion to
proceedings without allowing him to file an opposition . In her response, Judge Leavitt
,Sinus that she has no actual or implied bias of prejudice against Defendant or the State of

6
7
8

9
10

Nevada.
The Court has reviewed the record surrounding this matter and notes that on
September 10, 2019, a senior Judge directed Defendant to file his opposition to the State’s
motion to refer him to competency proceedings. At the September 17,2019 heanng before
[ Judge Leavitt, Defendant maintained that he could not file an opposition because he is a
I vexatious litigant. Judge Leavitt informed Defendant that he could request permission from
the Court to file his motion. Despite this. Defendant argued that Judge Leavitt had no

13
14
15
16
17
18
19
20
21
22

Based upon the record and everything Judge Leaviu
authority to grant that permission,
observed at this hearing, she referred Defendant to Competency Court.
The rulings and actions of a judge during the course of official judicial
proceedings do not establish legally cognizable grounds for disqualifications, A motion or
affidavit for disqualification is an inappropriate vehicle to attack the substantive rulings of
the underlying ease. If a litigant disagrees with the substantive rulings of a judge, they must
go through the appellate process. Here, the facts do not demonstrate the extreme bus or
prejudice against Defendant Utat would be necessary for disqualification. Defendant s
request to disqualify Judge Leaviu on these grounds is denied.

23
24
25

Ll
iis

26

//
//

27

til 28
Sli
SCO

//

5

/ a ci
III.

1

Conclusion

Defendant does not bring any cognizable claims supported by factual or legal

2

allegations against Judge Bell or Judge Leaviu. There is no evidence that Judge Bell or

3
4

Judge Leavitt have been

biased against Defendant. Further, Judge Leavitt’s rulings in the

evidence of bias or prejudice.
5 j| course of official judicial proceedings are not
Defendant’s request to disqualify Judge Bell and Judge Leavitt is denied.
6

7

DATED this^^day of January, 2020.

8

9
10
tl

Michael P.Villani
District Court Judge

12
13
14
15

16
17

18
19
20

21
22
23
24

25
2
<

s>

26

lit 27
a;5|

HI

S5s

28

6

Thus.

iu
Certificate of Service

1
2

The undersigned hereby certifies that on the date of filing, a copy of this Order was

3

electronically served through the Eighth Judicial District Court EFP system or, if no e-mail was

4

pro vided, by facsimile, U.S. Mail and/or placed in the Clerk’s Office attorney Folderis) for.

5
6
7
8
9
10

Party

Name
Kim Blandino
c/o441 N lfi*
Las Vegas, Nevada 89101

Defendant

Melanie H. Hariand
520 S. 7* Street, Suite A
Las Vegas, NV 89101

Attorney for Plaintiff

The Honorable Linda Marie Bell

Judge

The Honorable Michelle Leavitt

Judge

11
12
13
14
15
16
17
18
19
20
21
22
23

\U <LtHtUJtJuSiOALEXECUTlVE ASSISTANT, DEPARTMENT XVII

24

25

i t 26
5^5

27

dtjp

28

=.'s;2

m
Sat

affirmation
numberdeny person.
/s/Michael Villani
District Court Judge

Pate: 11/23/2030

Ib4
!>

APPENDIX C

APPENDIX C

ZN

mm

IN THE SUPREME COURT OF THE STATE OF NEVADA
KIM BLANDINO, AND SIMILARLY
SITUATED PERSON (NEIGHBORS),
Petitioner,

No. 81765

vs.

THE EIGHTH JUDICIAL DISTRICT
COURT OF THE STATE OF NEVADA,
IN AND FOR THE COUNTY OF
CLARK; AND DISTRICT COURT
JUDGES OF THE EIGHTH JUDICIAL
DISTRICT COURT,
Respondents,
and
THE STATE OF NEVADA,
Real Party in Interest.

§

NOV OS 2020
s:uistmli
a. maw/T)
ctem-Or
aftfUEME
cpupj/
ry.1/

T

: “ • "r.t'nji'y ccekx

ORDER DENYING PETITION FOR REVIEW
Review denied. NRAP 40B.1
It is so ORDERED.2

J.
Hardesty

jklidtpJ)

J.
Parra guirre

, j.
Cadish

J.

Stiglich

V
Silver

C,

, j.

1 Kristina Pickering, Chief Justice, and Mark Gibbons, Justice, did not
participate in the decision of this matter.
Supreme Court
OP
Nevada
(O) I947A

2We deny petitioner’s motion for stay of the district court proceedings
and motion to take judicial notice filed on October 13, 2020.

lU
cc:

Kim Blandino
Attorney General/Carson City
Clark County District Attorney
JCijgMi District Court Clerk

SlIPR&ME COURT

Nevada
fOi!947A

2
:
1IVUJII ■

■

Additional material
from this filing is
available in the
Clerk's Office.

